                                                            United States Attorney
                                                            District of New Jersey
FOR IMMEDIATE RELEASE                                       CONTACT: Rebekah Carmichael
December 3, 2010                                                     Office of Public Affairs
www.justice.gov/usao/nj                                              (973) 645-2888


            AIRCRAFT PARTS BROKER PLEADS GUILTY TO FRAUD FOR
             LAUNDERING SCRAPPED JET ENGINE PARTS FOR RESALE

       TRENTON, N.J. – The owner and operator of Suffern, New York-based aircraft parts
broker Shelby Enterprises entered a guilty plea today in connection with an aircraft parts
laundering scheme involving the sale of approximately $3 million in scrapped jet engine parts,
United States Attorney Paul J. Fishman announced.

       Carmine Coviello, 58, of Suffern, pleaded guilty to an Information charging him with
conspiracy to commit wire fraud before United States Judge Mary L. Cooper in Trenton federal
court.

       According to documents filed in this case and statements made in court:

       Coviello admitted that from April 2005 through August 2009, he used Shelby Enterprises
to purchase used jet engine parts called “blades” and “vanes” from scrap metal dealers.
According to Coviello, once he purchased the parts, he would have them grit blasted and blended
at a metal shop – a violation of Federal Aviation Administration (“FAA”) regulations – to
conceal that the parts had been scrapped. In some cases, the parts had already been deemed non-
repairable and thus not airworthy by FAA-certified repair stations.

        Through Shelby Enterprises, Coviello then purportedly sold the illegally-repaired blades
and vanes to Tara Aviation, a company located in the Bailiwick of Guernsey, a British Crown
Dependency in the English Channel. Tara Aviation and Tara Technology – another aircraft parts
broker located in Ridgefield, N.J. – were both solely owned and operated by a single individual,
and Coviello served as Tara Technology’s general sales manager. The sales, in the approximate
amount of $3 million, occurred only on paper. The parts never changed hands.

        Coviello admitted that the purpose of the sham sales was to generate fraudulent historical,
or “trace,” paperwork. Such paperwork documented the history of the parts and was necessary in
order to sell them. Coviello would prepare fraudulent trace paperwork for Shelby Enterprises on
which he certified that the aircraft parts had not been subjected to excessive stress or heat that
would render the parts not airworthy. Coviello also admitted that he would prepare fraudulent
paperwork for Tara Aviation on which a Tara Aviation employee in the United Kingdom
purportedly certified that “all used parts were not subjected to severe stress or heat (as in major
engine failure, accident or fire).”

       The only purpose of creating the phony paperwork was to conceal from FAA repair
stations and the ultimate purchasers of the aircraft parts that they were scrapped and had
previously been rejected as non-repairable by other FAA repair stations.

        The FAA certifies FAA repair stations to repair aircraft parts and issue “Airworthiness
Approval Tags,” which are required under FAA regulations before an aircraft part can be
reinstalled on an aircraft. According to Coviello, he would ship the illegally repaired blades and
vanes to FAA repair stations along with the fraudulent trace paperwork. Coviello acknowledged
that most FAA repair stations would not accept aircraft parts for repair if they were made aware
that those parts had been scrapped, that those parts had no trace paperwork, or that those parts
had been deemed non-repairable by another FAA repair station.

        According to Coviello, he caused the FAA repair stations to repair the blades and vanes
they felt were repairable, issue Airworthiness Approval Tags, and ship the blades and vanes and
supporting paperwork back to Tara Technology. Coviello would then store the blades and vanes
in Tara Technology’s warehouse inventory in Ridgefield and ultimately sell these parts to aircraft
brokers, airlines, and others on behalf of Tara Aviation.

        The defendant faces a maximum potential penalty of 20 years in prison and a fine of the
greatest of $250,000 or twice the gross gain or loss caused by his offense. In addition, Judge
Cooper will order that Coviello make restitution to the victims of his crimes. Sentencing is set
for March 16, 2011.

        U.S. Attorney Fishman credited special agents of the Department of Transportation,
Office of the Inspector General, under the direction of Inspector General Calvin L. Scovel III and
Special Agent in Charge Ned E. Schwartz; and special agents of IRS – Criminal Investigation,
under the direction of Special Agent in Charge Victor W. Lessoff, for the investigation leading to
the guilty plea.

       The case is being prosecuted by Assistant U.S. Attorney Scott B. McBride of the U.S.
Attorney’s Office Healthcare and Government Fraud Unit in Newark.

10-356                                          ###

Defense counsel: Robert J. Kipnees, Esq., Roseland, N.J.




                                                -2-
